                        DEPARTMENT OF HEALTH &. HUMAN SERVICES
                                OFFICE OF INSPECTOR GENERAL

                                  OFFICE OF AUDIT SERVICES

                               150 S. INDEPENDENCE MALL WEST

                                           SUITE 316

                           PHILADELPHIA, PENNSYLVANIA 19106-3499


                                         OCT      6 2008

Report Number: A-03-08-00200

Ms. Marsha K. Morris, Commissioner
Department of Health and Human Resources
350 Capital Street, Room 251
Charleston, West Virginia 25301-3706

Dear Ms. Marsha:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Follow-Up Audit of the Medicaid Drug Rebate Program in
West Virginia." We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, OIG reports generally are made available to the public to the extent the
information is not subj ect to exemptions in the Act (45 CFR part 5). Accordingly, this report
will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mr. Eugene G. Berti, Jr., Audit Manager, at (215) 861-4474 or through e-mail at
Gene.Berti@oig.hhs.gov. Please refer to report number A-03-08-00200 in all correspondence.

                                             Sincerely,


                                           ~+XeSrr~
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 - Ms. Marsha K. Morris


Direct Reply to HHS Action Official:

Ms. Jackie Gamer, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   FOLLOW-UP AUDIT OF THE
   MEDICAID DRUG REBATE
  PROGRAM IN WEST VIRGINIA




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-03-08-00200
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act. For a manufacturer’s covered outpatient drugs to be eligible for Federal
Medicaid funding under the program, the manufacturer must enter into a rebate agreement with
the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States.
CMS, the States, and drug manufacturers each undertake certain functions in connection with the
drug rebate program. In West Virginia, the Department of Health and Human Resources (the
State agency) administers the Medicaid drug rebate program.

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in
49 States and the District of Columbia (A-06-03-00048). Those audits found that only four
States had no weaknesses in accountability for and internal controls over their drug rebate
programs. As a result of the weaknesses, we concluded that States lacked adequate assurance
that all of the drug rebates due to the States were properly recorded and collected. Additionally,
CMS did not have reliable information from the States to properly monitor the drug rebate
program.

In our previous audit of the West Virginia drug rebate program, we determined that the State
agency did not have adequate controls over certain aspects of its Medicaid drug rebate program.
We found that: 1) outstanding rebates reported on the Form CMS-64.9R did not agree with the
accounting records, 2) drug rebate disputes were not resolved in a timely manner, 3) the rebate
billing department and accounts receivable department maintained separate accounting records
of rebate transactions and did not reconcile their records to one another, and 4) the State agency
used an outdated policies and procedures manual for the Medicaid drug rebate program that was
not approved by management (A-03-03-00207).

We recommended that the State agency:

   •   reconcile the outstanding rebates reported on the Form CMS-64.9R to its accounting
       records;

   •   resolve disputes as expeditiously as possible;

   •   instruct its rebate billing department and accounts receivable department to reconcile
       duplicate records, and total amount invoiced, collected, disputed and outstanding; and

   •   update its written policies and procedures manual and have the manual approved by
       management.

The State agency agreed with our findings and stated that it had taken action to correct them.

This current review of West Virginia is part of a nationwide series of reviews conducted to
determine whether States have addressed the weaknesses in accountability for and internal


                                                 i
controls over their drug rebate programs found in the previous reviews. Additionally, because
the Deficit Reduction Act of 2005 required States, as of January 2006, to begin collecting rebates
on single source drugs administered by physicians, this series of reviews will also determine
whether States have complied with the new requirement.

OBJECTIVES

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the West Virginia drug rebate program
and (2) established controls over collecting rebates on single source drugs administered
by physicians.

SUMMARY OF FINDINGS

The State agency initiated corrective measures to address all of our recommendations except one.
The State agency did not resolve disputes in a timely manner. The State agency established
controls over collecting rebates on single source drugs administered by physicians.

Since our prior audit, the State agency has resolved some rebate disputes. However, the State
agency did not comply with the requirements of the rebate agreement or its own policies and
procedures for the timely resolution of disputes due to insufficient staffing. As a result, the
aggregate unresolved disputes grew from $561,088 in 2002 to $5,779,790 on June 30, 2006 as
disputed items aged and new disputes remained unresolved.

RECOMMENDATION

We recommend that the State agency resolve $5,779,790 in disputes in a timely manner.

STATE AGENCY COMMENTS

In its comments to our draft report, the State agency concurred with our recommendation. The
Appendix presents the State agency comments.




                                                 ii
                                                    TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION............................................................................................................1

     BACKGROUND .........................................................................................................1
       Drug Rebate Program ............................................................................................1
       Physician-Administered Drugs .............................................................................1
       Prior Office of Inspector General Reports .............................................................2
       West Virginia Drug Rebate Program.....................................................................3

     OBJECTIVES, SCOPE, AND METHODOLOGY.....................................................3
       Objectives ...............................................................................................................3
       Scope.......................................................................................................................3
       Methodology ...........................................................................................................3

FINDINGS AND RECOMMENDATION.....................................................................4

     IMPLEMENTATION OF PRIOR RECOMMENDATIONS .....................................4

     RESOLUTION OF DISPUTES...................................................................................5

     PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS ..................................5

     RECOMMENDATION ...............................................................................................5

     STATE AGENCY COMMENTS................................................................................6

OTHER MATTERS ........................................................................................................6

APPENDIX

     STATE AGENCY COMMENTS




                                                                        iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer’s covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program. In West Virginia, the Department of Health and
Human Resources (the State agency) is responsible for the drug rebate program.

Pursuant to section II of the rebate agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug’s average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on Form CMS-64.9R. This is part of Form CMS-64,
“Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,” which
summarizes actual Medicaid expenditures for each quarter and is used by CMS to reimburse
States for the Federal share of Medicaid expenditures.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of 2005 (DRA) amends section 1927 of the Act and
requires States, as of January 1, 2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs. 1 Single source
drugs are commonly referred to as “brand name drugs” and do not have generic equivalents.


1
 This provision of the DRA expands the requirement to certain multiple source drugs administered by physicians
after January 1, 2008.


                                                        1
In West Virginia, physician-administered drugs are billed to the State Medicaid program on a
physician claim form using procedure codes that are part of the Healthcare Common Procedure
Coding System. The NDC is not included on the physician claim form. The procedure code
identifies a drug by its active ingredient(s) and identifies the number of drug units (billing units)
allowed per reimbursement for that procedure code. Because rebates are calculated and paid
based on NDCs, each procedure code must be converted to an NDC. Additionally, the billing
units for a procedure code may differ from the units used for rebate purposes (e.g., grams versus
liters). Therefore, to determine rebates, the procedure codes must be converted into NDCs for
single source drugs, and procedure code billing units must be converted into equivalent NDC
billing units.

Prior Office of Inspector General Reports

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in
49 States and the District of Columbia. 2 Those audits found that only four States had no
weaknesses in accountability for and internal controls over their drug rebate programs. As a
result of the weaknesses, we concluded that States lacked adequate assurance that all of the drug
rebates due to the States were properly recorded and collected. Additionally, CMS did not have
reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the West Virginia drug rebate program, we determined that the State
agency did not have adequate controls over certain aspects of its Medicaid drug rebate program.
We found that: 1) outstanding rebates reported on the Form CMS-64.9R did not agree with the
accounting records, 2) drug rebate disputes were not resolved in a timely manner, 3) the rebate
billing department and accounts receivable department maintained separate accounting records
of rebate transactions and did not reconcile their records to one another, and 4) the State agency
used an outdated policies and procedures manual for the Medicaid drug rebate program that was
not approved by management. 3

We recommended that the State agency:

       •   reconcile the outstanding rebates reported on the Form CMS-64.9R to its accounting
           records;

       •   resolve disputes as expeditiously as possible;

       •   instruct its rebate billing department and accounts receivable department to reconcile
           duplicate records, and total amount invoiced, collected, disputed and outstanding; and

       •   update its written policies and procedures manual and have the manual approved by
           management.

2
 “Multistate Review of Medicaid Drug Rebate Programs” (A-06-03-00048), issued July 6, 2005; Arizona was not
included because it did not operate a drug rebate program.
3
    “Review of West Virginia’s Medicaid Drug Rebate Program” (A-03-03-00207), issued October 15, 2003.




                                                         2
The State agency agreed with our findings and stated that it had taken action to correct them.

West Virginia Drug Rebate Program

The State agency contracts with its fiscal agent, Unisys, to perform all drug rebate program
functions other than receiving rebate funds. The fiscal agent’s responsibilities included verifying
interest payments and accounting for rebates on single source drugs administered by physicians.
The fiscal agent also converts the procedure code billing units into equivalent NDC billing units.

The State agency reported an outstanding drug rebate balance of $36,802,938 on the June 30,
2006, Form CMS-64.9R. However, none of this amount related to the June 30, 2006, quarterly
billings. Of the $36,802,938 that was past due, $7,527,153 was more than 1 year old. For the
fiscal year ended June 30, 2006, the State agency reported rebate billings of approximately
$142,551,410 million and collections of $142,407,504 million.

This current review of the West Virginia drug rebate program is part of a nationwide series of
reviews conducted to determine whether States have addressed the weaknesses in accountability
for and internal controls over their drug rebate programs found in the previous reviews.
Additionally, because the DRA required States, as of January 2006, to begin collecting rebates
on single source drugs administered by physicians, this series of reviews will also determine
whether States have complied with the new requirement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the West Virginia drug rebate program
and (2) established controls over collecting rebates on single source drugs administered
by physicians.

Scope

We reviewed the State agency’s current policies, procedures, and controls over the drug rebate
program and the accounts receivable data reported on Form CMS-64.9R as of June 30, 2006.

We performed our fieldwork at the State agency and its fiscal agent, both of which are located in
Charleston, West Virginia, in October 2007.

Methodology

To accomplish our objectives, we:




                                                 3
   •   reviewed section 1927 of the Act, section 6002(a) of the DRA, CMS guidance issued to
       State Medicaid directors and other information pertaining to the Medicaid drug rebate
       program;

   •   reviewed the policies and procedures related to the fiscal agent’s drug rebate accounts
       receivable system;

   •   interviewed State agency officials and fiscal agent staff to determine the policies,
       procedures, and controls that related to the Medicaid drug rebate program;

   •   reviewed copies of Form CMS-64.9R for the period July 1, 2005, through June 30, 2006;

   •   reviewed accounts receivable records as of June 30, 2006, and interest payments received
       for the quarter ended June 30, 2006;

   •   interviewed fiscal agent staff to determine the processes used in converting physician
       services claims data into drug rebate data related to single source drugs administered by
       physicians; and

   •   reviewed rebate billings and reimbursements for procedure codes related to single source
       drugs administered by physicians for the period January 1 through June 30, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATION

The State agency initiated corrective measures to address all of our recommendations except one.
The State agency did not resolve disputes in a timely manner. The State agency established
controls over collecting rebates on single source drugs administered by physicians.

Since our prior audit, the State agency has resolved some rebate disputes. However, the State
agency did not comply with the requirements of the rebate agreement or its own policies and
procedures for the timely resolution of disputes due to insufficient staffing. As a result, the
aggregate unresolved disputes grew from $561,088 in 2002 to $5,779,790 on June 30, 2006, as
disputed items aged and new disputes remained unresolved.

IMPLEMENTATION OF PRIOR RECOMMENDATIONS

In our prior audit of the West Virginia drug rebate program, we determined that the State agency
did not have adequate controls over certain aspects of its Medicaid drug rebate program. We
found that: 1) outstanding rebates reported on the Form CMS-64.9R did not agree with the
accounting records, 2) drug rebate disputes were not resolved in a timely manner, 3) the rebate



                                                 4
billing department and accounts receivable department maintained separate accounting records
of rebate transactions and did not reconcile their records to one another, and 4) the State agency
used an outdated policies and procedures manual for the Medicaid drug rebate program that was
not approved by management.

Since our prior audit, the State agency has reconciled the outstanding rebates reported on the
Form CMS-64.9R to its accounting records. To address our recommendation to reconcile
duplicate records of the billing and accounts receivable departments, the State agency merged the
two functions under the Rebate program, eliminating the duplicate recordkeeping. The State
agency has also begun to address the control issues that resulted in our prior findings. The State
agency is implementing a new computer rebate system that will assist in strengthening
accounting controls and has established a new position to evaluate the rebate accounting records
and maintain internal controls over the accounting data. The State agency updated its policies
and procedures manual to reflect changes in staff responsibilities and to address functions of the
new computer rebate system. However, at the time of our fieldwork the computer rebate system
was not fully functional and the position was not filled.

RESOLUTION OF DISPUTES

Section V(c) of the standard Rebate Agreement states that “the State and the Manufacturer will
use their best efforts to resolve the discrepancy within 60 days of receipt of such notification. In
the event that the State and the Manufacturer are not able to resolve a discrepancy within 60
days, CMS shall require the State to make available to the Manufacturer the State hearing
mechanism available under the Medicaid program.” The updated State agency’s Policies and
Procedures Manual requires that disputes are to be resolved on a timely basis with the newest
and largest disputes resolved first.

Since our prior audit, the State agency has resolved some rebate disputes. However, the total
amount of unresolved rebates increased as the items in dispute aged and new disputes remained
unresolved. The State agency acknowledged that the current staffing, one staff member
responsible for resolving disputes in addition to other duties, was not sufficient. As of June 30,
2006, the aggregate unresolved disputes had grown from $561,088 in 2002 to $5,779,790.

PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS

The State agency established controls over collecting rebates for single source drugs
administered by physicians as required by the DRA. The State agency paid $2,247,557 in claims
for physician-administered drugs during the January through June 2006 time period and billed
manufacturers for rebates totaling $1,002,687.

RECOMMENDATION

We recommend that the State agency resolve $5,779,790 in disputes in a timely manner.




                                                  5
STATE AGENCY COMMENTS

In commenting on our draft report, the State agency concurred with our recommendation and
listed the corrective actions it planned to take. The Appendix presents the State agency
comments.

                                       OTHER MATTERS

Improper Completion of Form CMS-64.9R

The State Agency’s Medicaid drug rebate policies and procedures manual, Chapter VIII, CMS-
64 Report, states that: “We must maintain a formal system of records, in readily reviewable
form, supporting documentation that provides detailed information on pending drug rebates at
the beginning of the quarter, the amounts of drug rebates computed for each labeler, amounts
adjustments made, amounts collected and remaining pending drug rebates at the end of the
quarter.”

The State agency improperly completed the Form CMS-64.9R for the quarter ended June 30,
2006; all rows for column A were blank. Column A includes information for the current quarter
as follows: 1) balance as of the beginning of the quarter, 2) adjustments to previously reported
rebates, 3) rebates included in the quarter, 4) subtotal, 5) rebates received, and 6) balance as of
the end of the quarter. The State agency informed us that it left the amount in column A blank
because it believed that it was supposed to post actual billings for the current quarter in the next
quarter (June 30 billings are posted on the Form CMS-64.9R for August 31). As a result, the
totals posted in column F (Schedule Total) are incorrect because figures applied to column A
would be included in the schedule total.




                                                  6
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
